                               UNITED STATES DEPARTMENT OF AGRICULTURE
                                              OFFICE OF INSPECTOR GENERAL

                                                    Washington, D.C. 20250




Date: June 29, 2010

REPLY TO
ATTN OF:           11601-01-HQ

TO:                Jon Holladay
                   Acting Chief Financial Officer
                   Office of the Chief Financial Officer

THROUGH: Kathy Donaldson
         Audit Liaison Officer
         Office of the Chief Financial Officer

FROM:              Gil H. Harden /s/
                   Assistant Inspector General
                    for Audit

SUBJECT:           Implementation and Operation of GovTrip at the U.S. Department of Agriculture


In response to a Congressional request received February 27, 2009, we evaluated specific
concerns regarding the implementation1 and operation of the GovTrip Governmentwide e-Travel
system (GovTrip). The concerns questioned whether GovTrip failed to achieve savings due to
lack of training for employees and higher administrative costs for processing vouchers. In
addition, concerns were raised as to whether GovTrip had potentially compromised the security of
its users and their personal information.

The audit focused on training provided and/or available to USDA employees, the selection of
GovTrip from the approved GSA schedule, GovTrip’s administrative fees, and system security.
We concluded that:

    ·    training provided and/or available to USDA employees was adequate;
    ·    the selection of GovTrip as USDA’s official e-Travel system was supported as
         appropriate;
    ·    administrative fees were not excessive; and
    ·    the system adequately protects the security of its users and their personal information.




1
  For purposes of this audit, the definition of implementation was limited to the manner in which USDA selected GovTrip from the
e-Travel system schedule approved by the General Services Administration (GSA), and did not include any analysis of GovTrip’s
actual installation.
Background

In support of the President’s Management Agenda, issued in August 2001, GSA was tasked
with implementing the e-Travel initiative. On June 26, 2006, USDA selected Northrop
Grumman’s GovTrip as its e-Gov Travel Service from the three systems available on the
GSA-approved schedule.

Northrop Grumman’s GovTrip system is a large, complex, distributed computing system
that provides USDA travelers with automated travel planning and reimbursement
capabilities. From computers with Internet access, travelers are able to electronically
generate travel authorizations, make trip reservations, and electronically route travel
requests for approval. The system is paperless and allows for the electronic submission of
travel documents. When the trip is complete, the traveler files a voucher in GovTrip that is
electronically routed for approval and, after approval, is sent to USDA’s accounting system
for payment. An electronic funds transfer or a check from the Treasury to the traveler
completes the process.

USDA is charged for the use of GovTrip through two types of administrative fees
associated with the system. A fee of $4.35 is assessed when an authorization
(request/approval to travel) is made. A second fee, a minimum of $13.50, is assessed each
time a travel voucher (request/approval for reimbursement of travel expenses once travel is
completed) is processed. Both of the administrative fees are paid to Northrop Grumman,
the developer and owner of GovTrip. There is usually one transaction associated with an
authorization and one transaction associated with a voucher. However, there are occasions
when a single authorization may have multiple transactions and thus multiple fee
assessments—for example, someone on a long trip may file multiple partial vouchers
seeking reimbursement for completed portions of the trip. Higher fees are charged when
travelers use the assistance of travel agents to book and/or change travel arrangements
using USDA’s contracted travel management centers (TMC). The administrative costs
associated with these services are assessed per transaction and vary in amount based on the
level of service provided, ranging from about $17.00 to $33.00.

Objective

The objective of the audit was to review the areas specifically cited in the Congressional
request. The request expressed concern that USDA may have failed to achieve cost savings
due to a lack of training, incurred higher administrative costs, and experienced system
security vulnerabilities using the GovTrip system. We were asked to look at the
implementation and operations of GovTrip at USDA.

Scope and Methodology

We reviewed the data in GovTrip for the period December 1, 2008, the point at which all
USDA agencies were using GovTrip, through May 31, 2009, a 6-month period. The audit
was performed from April 2009 through March 2010. To address the concerns related to

higher administrative costs, we reviewed GSA’s travel service fees as documented in
GSA’s e-Gov Travel Pricing Guide. We interviewed OCFO and Northrop Grumman2
personnel, attended meetings, and analyzed applicable documentation in order to assess the
validity of the items noted in the Congressional request. We conducted this audit in
accordance with generally accepted Government Auditing Standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Findings
GovTrip Training

We concluded that the GovTrip training provided and/or available to employees of USDA
was adequate. Training is available in a classroom setting, on a one-on-one basis, via Web
seminars, and through published quick tips. In addition, frequently asked questions (FAQ)
are available. Users can also register for and complete training online through the AgLearn
Web site.3

Selection of the GovTrip System

USDA selected Northrop Grumman’s GovTrip as its e-Gov Travel Service on June 26,
2006. This decision was made after a thorough evaluation of the three competing GSA-
approved e-Travel services. The evaluation included written proposals, demonstrations,
and a “hands-on” session, during which 100 USDA employees/travelers performed user
testing on the three systems. This group concluded that GovTrip was the best system. We
concluded that USDA based its conclusion on an appropriate evaluation of travel
operations at USDA.

Administrative Fees

In order to validate the appropriateness of the administrative fees, we analyzed the costs
directly associated with the use of the three GSA approved e-Travel systems and
determined all three to be comparable. GovTrip’s $4.50 fee for processing a travel
authorization and the $13.50 fee for processing a travel voucher were competitive.
Travelers do not always have Internet access to book travel arrangements, and travel dates
are often extended, shortened, or changed while a traveler is in travel status. When these
instances occur and the traveler does not have access to the online system, the traveler must
contact a travel agent at a TMC, with those administrative fees ranging from $17.00 to
about $33.00 per transaction based on the type of travel request. Prior to GovTrip, these
fees were part of the ticket price and not transparently listed as separate fees.

In addition, there are benefits to using GovTrip that cannot be measured in monetary terms.

2
  Northrop Grumman is the developer and owner of GovTrip.
3
  AgLearn is USDA’s departmentwide system for managing training and activity at USDA. USDA employees and USDA partners have
access to search, enroll in, and record all training opportunities through the Web any time, any place.
In addition, there are benefits to using GovTrip that cannot be measured in monetary terms.
For example, GovTrip provides USDA with an online, auditable transaction and payment
process. In the case of any suspicious travel expenses, one can easily determine whether
the travel was appropriately approved, conducted, and paid for.

IT Security

We concluded that the system does not pose a significant potential threat to the security of
its users and their personal information. We noted that Northrop Grumman had improved
its GovTrip system security. For example, it improved its intrusion detection system and
required users to implement a more complex password requiring alpha, numeric, and
special characters. Also, system upgrades were made to include timestamps and
monitoring of file sizes to detect potential manipulation of files.

Since this letter report contains no recommendations, no response is necessary. We
appreciate the courtesies extended to our staff during the audit.
